No. 20-1531
IN THE

Supreme Court of the United States
THE NORTH AMERICAN COAL CORPORATION,
Petitioner,
v.
U.S. ENVIRONMENTAL PROTECTION AGENCY AND MICHAEL REGAN,
ADMINISTRATOR OF THE U.S. ENVIRONMENTAL PROTECTION AGENCY,
Respondents.
PROOF OF SERVICE
I, Rita L. Hemenway of Bateman & Slade, Inc., hereby declare
that on this third day of June 2021, I have served three (3) true copies
of the Brief of Amicus Curiae New England Legal Foundation in
Support of Petitioner by priority mail, postage prepaid, addressed as
follows:
Counsel of Record for Petitioners:
Jacob Moshe Roth, Esq.
Jones Day
51 Louisiana Avenue NW
Washington, DC 20001
yroth@jonesday.com
Counsel of Record for Respondents:
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov

1

Counsel of Record for Respondents:
Steven Chiajon Wu
New York Office of the Attorney General
28 Liberty Street
New York, NY 10005
steven.wu@ag.ny.gov
Signed under the pains and penalties of perjury,

Rita L. Hemenway

Rita L. Hemenway
NOTARIZED BY:

George D. Bateman
George D. Bateman
My Commission Expires: May 30, 2025

2

